BREDHOFF & KAISER, P.L.L.C.
Bruce R. Lerner
Andrew D. Roth
Roger Pollak
Anne Ronnel Mayerson
Leon Dayan
Devki K. Virk
Robert Alexander
Matthew Clash-Drexler
Abigail V. Carter
Kathleen Keller
Joshua B. Shiffrin
Jenifer A. Cromwell
Ramya Ravindran
Jacob Karabell
Caitlin Kekacs

Attorneys & Counselors
805 Fifteenth Street NW – Suite 1000
Washington, D.C. 20005
(202) 842-2600 TEL
(202) 842-1888 FAX
www.bredhoff.com

Adam Bellotti
Joshua A. Segal
Elisabeth Oppenheimer
April H. Pullium
Joshua A. Rosenthal
Dana M. Krohn
——————

Richard F. Griffin, Jr.
Deva A. Kyle
Tzvi Mackson*
Of Counsel

Elliot Bredhoff
(1921 – 2004)

Henry Kaiser
(1911 - 1989)

——————

Robert M. Weinberg
Julia Penny Clark
Jeremiah A. Collins
Mady Gilson
John M. West
Senior Counsel
*Admitted only to New York bar.
Application pending for District of
Columbia bar; practice supervised
directly by principals of the firm.

August 3, 2021
By Electronic Filing
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, DC 20543-0001
Re:

Troesch, et al. v. Chicago Teachers Union, et al., No. 20-1786

Dear Mr. Harris:
I write pursuant to Supreme Court Rule 30.4, as counsel for Respondent
Chicago Teachers Union, Local Union No. 1, American Federation of Teachers, in
the above-referenced matter, to request a 30-day extension of time for all
respondents to file Briefs in Opposition to the pending Petition for Certiorari. This
request is being made because the Court issued a request for responses in this
matter on July 27, 2021, and I have numerous work commitments, as well as seven
days of personal vacation scheduled around a family wedding, already scheduled for
August 2021. The requested enlargement of time would extend the due date for all
respondents to September 27, 2021.
I have consulted with William Messenger, counsel for Petitioner, who does
not oppose the requested 30-day extension.
Thank you for your consideration of this matter.

Page 2

Sincerely,
/s/ Joshua B. Shiffrin
Joshua B. Shiffrin

cc:

William Messenger, Counsel for Petitioner (by e-mail)
Thomas Doyle, Counsel for Respondent Board of Education for the City of
Chicago (by e-mail)

